<html>
<title> - LEARNING FROM A LAUREATE: SCIENCE, SECURITY AND SUSTAINABILITY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Publishing Office]


 
     LEARNING FROM A LAUREATE: SCIENCE, SECURITY AND SUSTAINABILITY

=======================================================================

                                HEARING

                               before the

                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 30, 2008

                               __________

                           Serial No. 110-24


             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
58-418                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d8bfa8b798bbadabacb0bdb4a8f6bbb7b5f6">[email&#160;protected]</a>  

                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr., 
JAY INSLEE, Washington                   Wisconsin, Ranking Member
JOHN B. LARSON, Connecticut          JOHN B. SHADEGG, Arizona
HILDA L. SOLIS, California           GREG WALDEN, Oregon
STEPHANIE HERSETH SANDLIN,           CANDICE S. MILLER, Michigan
  South Dakota                       JOHN SULLIVAN, Oklahoma
EMANUEL CLEAVER, Missouri            MARSHA BLACKBURN, Tennessee
JOHN J. HALL, New York
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                     David Moulton, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Thomas Weimer, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared statement...........................................     3
Hon. Jay Inslee, a Representative in Congress from the State of 
  Washington, opening statement..................................     5
Hon. Stephanie Herseth Sandlin, a Representative in Congress from 
  the State of South Dakota, opening statement...................     5

                               WITNESSES

Dr. Rajendra Pachauri, Chairman, Intergovernmental Panel on 
  Climate Change.................................................     7
    Prepared statement...........................................    12
    Presentation material........................................    19
    Answers to submitted questions...............................    45

                          SUBMITTED MATERIALS

Hon. Edward J. Markey, the 2007 Nobel Prize acceptance speech of 
  Dr. Rajendra Pachauri..........................................    48


     LEARNING FROM A LAUREATE: SCIENCE, SECURITY AND SUSTAINABILITY

                              ----------                              --
--------


                      WEDNESDAY, JANUARY 30, 2008

                  House of Representatives,
            Select Committee on Energy Independence
                                        and Global Warming,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:07 a.m., in Room 
1324, Longworth House Office Building, Hon. Edward J. Markey 
(chairman of the committee) presiding.
    Present: Representatives Markey, Inslee, Herseth Sandlin, 
Cleaver, and Hall.
    The Chairman. This hearing of the Select Committee on 
Energy Independence and Global Warming is called to order.
    Last February, the Intergovernmental Panel on Climate 
Change released the first report of their fourth assessment, 
which provided a scientific smoking gun that human activities 
were unequivocally responsible for global warming. Three more 
reports followed throughout 2007. Taken together, the fourth 
assessment reports represent the seminal review of the science 
of global warming, its impacts and strategies to address it.
    For their work in educating the world about both the 
dangers of global warming and the policies needed to prevent 
it, Dr. Rajendra Pachauri, Chairman of the IPCC, and his 
colleagues were jointly awarded the 2007 Nobel Peace Prize with 
former Vice President Al Gore. With the award of the Peace 
Prize, the Nobel Committee acknowledged that stopping global 
warming is not just a matter of economics or environmental 
stewardship, it is a matter of war and peace.
    As the fourth assessment shows, the dangerous buildup of 
heat-trapping gases in the atmosphere due to human activities 
is already threatening the peace and security of communities 
around the world. Sea levels are rising, rainfall patterns are 
changing, public health is suffering, conflicts are spawned and 
fed, and the disproportionate amount of injury is occurring in 
the developing world to the people least responsible for global 
warming. And so a scientific report highlights our moral 
obligation to reduce global warming pollution and prepare for 
those impacts that have become unavoidable.
    We can't mortgage the children of the planet's future by 
continuing to emit global warming pollution in the atmosphere 
unabated. We need to achieve real reductions now.
    The energy bill that became law in December was a 
significant down payment on the necessary emission reductions, 
but it was nowhere near sufficient to meet the enormous 
challenge which we face. In order to further reduce global 
warming pollution the House will consider legislation this year 
that puts the United States on a path for an 80 percent 
reduction in our emissions by the year 2050.
    The obligation of the United States to adopt such policies 
is clear and compelling. When the Chinese and Indians look up 
in the sky, they see red, white and blue CO<INF>2</INF>. The 
United States alone is responsible for over a quarter of the 
carbon dioxide increase in the atmosphere over the last 150 
years. While China's total annual emissions may now equal those 
of the United States, U.S. emissions are still four times 
greater than China's on a per capita basis. It is time for the 
Congress to reestablish America's position in the fight against 
global warming as a leader and not a laggard.
    In his acceptance speech, Dr. Pachauri quoted fellow Nobel 
Peace Prize winner Willy Brandt's observation that ``next to 
reasonable politics, learning is the true credible alternative 
to force.'' I believe history will look back upon the work of 
the IPCC, and especially the fourth assessment as the very 
credible force that helped the world avoid catastrophic global 
warming conflicts and secure an equitable energy peace. So we 
are very proud of our witness today, and I think it is going to 
be a historic hearing.
    So let me turn and now recognize the gentleman from 
Washington State, Mr. Inslee, for an opening statement.
    [The prepared statement of Mr. Markey follows:]

    [GRAPHIC] [TIFF OMITTED] T8418A.001
    
    [GRAPHIC] [TIFF OMITTED] T8418A.002
    
    Mr. Inslee. Thank you.
    This is a tremendous honor for us in the House today to 
have Dr. Pachauri here, because I really believe that you 
couldn't have any of several billion folks on the planet to be 
in a more important position than Dr. Pachauri; and it is a 
great honor that he has joined us today. There really is no one 
else walking on the face of the Earth that has played a bigger 
role in preventing the Arctic eventually from disappearing, in 
preventing the desertification of substantial parts of the 
middle latitudes, in preventing us from losing a good portion 
of our Midwest agricultural base, in preventing millions from 
losing drinking water from the glaciers in the Himalayas and in 
preventing the conflicts that my friend, Ed Markey, has talked 
about.
    And so it is really a great honor that you have joined us 
because spreading this news is allowing us to move.
    And Dr. Pachauri and I had a chance to talk briefly before 
this hearing. And I just want to share one thing with the good 
doctor who, I know, may have had some frustration--with the 
rest of the world--with the United States' inability to move on 
global warming. And given the certainty of the science, that 
has been frustrating.
    But the cavalry is on the way. Things are changing here. 
The ice is melting in the Arctic, but the ice of resistance to 
science is melting here in the United States Congress as well, 
and we are going to get this job done.
    I will be particularly attentive to Dr. Pachauri's 
discussion of what our targets need to be to prevent these 
devastating losses. Looking at the report suggests that to have 
a 50 percent chance of stabilizing temperature increases below 
2.5 degrees Celsius above preindustrial levels would require 
that global emissions--global emissions--peak by the year 2015, 
and industrialized countries, including the United States, will 
have to decrease to 25 to 40 percent below 1990 levels by 2020.
    That is an incredibly important target. I look forward to 
his discussion of why that is important, because the United 
States Congress will be setting targets, we hope this year. We 
need to be more aggressive on those targets.
    To date, Doctor, I regret to say no legislation has been 
introduced to achieve those targets. That is going to change 
shortly. And I hope that you will address the importance of 
those near-term targets to really tame this beast.
    Thank you very much.
    The Chairman. The gentleman's time has expired.
    The chair recognizes the gentlelady from South Dakota, Ms. 
Herseth Sandlin.
    Ms. Herseth Sandlin. Thank you, Mr. Chairman, and thank you 
for hosting this hearing.
    And I want to echo the sentiments of my colleague, Mr. 
Inslee, Doctor, for your being here and for the work that you 
have done to address the serious issue of global climate 
change.
    I represent the State of South Dakota in the Great Plains, 
and so I am very interested today in hearing more from your 
testimony and perhaps posing some questions as it relates to 
the risk of climate change globally in agricultural sectors, 
but also the opportunities that that provides for rural parts 
of the world, particularly the economic advantages of renewable 
energies in all forms, as well as the issue that we are going 
to be grappling with that actually got some attention here just 
a couple of days ago as relates to the offsets that were 
purchased by the House of Representatives, and one of the 
projects being in the agricultural sector--actually, perhaps 
two of them--and how we go about measuring it and having 
standardized measurements for the carbon that can be stored in 
the soil based on farming types, grazing practices, farming 
practices and the importance of making sure we get that right. 
Because there are already farmers and ranchers that are trading 
on the Chicago Climate Exchange, and I have significant worries 
about how that is currently structured, what the value of those 
offsets will be in the future and the monitoring that is 
required.
    So thank you very much for being here today. I look forward 
to your testimony.
    The Chairman. The gentlelady's time has expired.
    Over 2,000 of the world's top scientists from more than 130 
countries contributed to the IPCC's fourth assessment. It takes 
an exceptionally talented individual to lead such a diverse 
group and produce such an outstanding analysis. I am honored to 
have such a person before the Select Committee this morning, 
Dr. Rajendra Pachauri, Chairman of the IPCC.
    On December 10, 2007, the immense contribution of the IPCC 
was honored with the Nobel Peace Prize, which Dr. Pachauri 
accepted on behalf of the IPCC. I will enter his Nobel 
acceptance speech into the Congressional Record.
    The Chairman. In addition, his contributions to improving 
the global environment have been recognized by the Indian and 
the French Governments. He was also named the science journal 
Nature's first-ever Newsmaker of the Year.
    Dr. Pachauri is also the Director-General for The Energy 
and Resources Institute, TERI, in India where he has served as 
the Chief Executive since 1981. Understandably, the Indian 
Government has asked him to serve in a variety of advisory 
roles, including his current membership in Prime Minister 
Singh's Council on Climate Change.
    He has a Ph.D. in industrial engineering and a Ph.D. in 
economics, both from the North Carolina State University in 
Raleigh. He has taught at a variety of academic institutions in 
the United States and India and served on a number of 
nongovernmental organizations and business boards throughout 
the world.
    I am told he is also passionate about cricket and is a 
handy swing bowler, having taken 348 wickets for the TERI team. 
But I think it is more likely that Dr. Pachauri will get 
Members of Congress to understand these climate change science 
policies than cricket.
    It is not often that Members get to learn from a Nobel 
laureate. And so I would ask unanimous consent that he is 
allowed to speak 10 minutes in his opening remarks before we 
turn to questions from the subcommittee members.
    Dr. Pachauri, it is our honor to have you before us today. 
Whenever you are comfortable, please begin.

STATEMENT OF RAJENDRA K. PACHAURI, Ph.D., DIRECTOR-GENERAL, THE 
ENERGY AND RESOURCES INSTITUTE, AND CHAIRMAN, INTERGOVERNMENTAL 
                    PANEL ON CLIMATE CHANGE

    Mr. Pachauri. Mr. Chairman and honorable members, may I 
express my sense of privilege at being given this opportunity.
    Indeed, I have regarded the U.S. as a home because I have 
lived and worked over here and, therefore, I have a special 
respect and a great deal of reverence for this remarkable 
institution which I think the whole world looks up to. So thank 
you very much for giving me this opportunity.
    And, Mr. Chairman, you have already laid out, and so have 
the honorable members who have spoken, some of the major 
challenges and some of the major opportunities that we have 
globally. And you have also brought out the importance of 
timing and timeliness in taking action, because we really don't 
have a moment to lose.
    I would seek your privilege in presenting a very brief 
PowerPoint presentation which essentially summarizes the 
testimony that I have submitted for this occasion. So I will 
turn to the first slide, if I may.
    One important fact that we brought out in the fourth 
assessment report is that if we continue with GHG emissions, 
greenhouse gas emissions, at current levels or above that, then 
further warming would induce many changes in the global climate 
system during the 21st century that would very likely be larger 
than those observed during the 20th century.
    When we use the term ``very likely,'' it advisedly 
represents a probability of over 90 percent; and therefore we 
know, based on projections that we have made, that if we don't 
do anything to reduce emissions of greenhouse gases and 
stabilize the Earth's atmosphere, we would have warming and 
consequent other impacts that would be far more severe than 
what we have witnessed in the past.
    Next, please.
    What is of particular importance, given the fact that the 
U.S. is a major leader, is the leader of the Free World, and 
clearly its actions and its positions have a major impact on 
peace and stability over the world, as the chairman has 
mentioned, the Norwegian Nobel Committee, by awarding the Nobel 
Peace Prize for 2007, has acknowledged the importance of 
stabilizing the Earth's climate in the absence of which we will 
clearly run into problems of disruption of peace and stability 
in different parts of the world.
    Now, if you look at the impacts on the poor regions, next, 
then we know, based on our projections, that people would be 
exposed to increased water stress by 2020 to the extent of 120 
million to 1.2 billion in Asia, 75 to 250 million in Africa, 12 
to 81 million in Latin America. And therefore we must keep this 
in mind, particularly since several parts of the world already 
suffer from water stress; and climate change would only add to 
these stresses and exacerbate them to a point where they could 
be critical in determining the stability, the well-being of 
these societies.
    We also know that there would be decline in agriculture in 
several parts of the world. Roughly 50 percent by 2020 in some 
African countries, 30 percent by 2050 in Central and South Asia 
and 30 percent by 2080 in Latin America.
    I might mention, Mr. Chairman, that there is evidence from 
my own country, India, where agricultural scientists are now 
finding that several crops are actually experiencing declines 
in yields--wheat, in particular. And wheat is very, very 
sensitive to temperature increases at a particular point of its 
growth cycle. If those temperatures increase anywhere between 
1.5 to 2 degrees Celsius, they have a major impact on the 
decline of productivity of the wheat crop; and we have growing 
evidence of that in India. I am mentioning this because this 
clearly has major implications for food security worldwide.
    Next.
    We also see the possibility of abrupt or irreversible 
impacts.
    Next.
    For instance, partial loss of the ice sheets on polar land, 
which includes essentially Greenland and the west Antarctic ice 
sheet, could imply several meters of sea level rise. And I know 
that you have visited Greenland, Mr. Chairman, and you have 
seen visibly the kinds of changes that are taking place over 
there. This clearly would be a disaster if it was to occur.
    Next.
    We also know that 20 to 30 percent of the species that the 
IPCC has assessed are likely to be at risk of extinction if 
increases in warming exceed 1.5 to 2.5 degrees Celsius. And 
these are abrupt and irreversible changes because, once this 
kind of damage takes place, we really have no way of turning 
back.
    Next.
    We also know the impacts on North America would be quite 
considerable. Warming in the western mountains is projected to 
cause decreased snowpack and reduced summer flows, and this 
will exacerbate competition for overallocated water resources 
in these regions.
    Next.
    Major challenges are projected for crops that are near the 
warm end of their suitable range or which depend on highly 
utilized water resources, so there would be unfavorable impacts 
on agriculture as a result. We also know that increased number 
intensity and duration of heat waves will have potential for 
adverse health impacts.
    I don't want to draw attention to what happened in Europe, 
for instance, in the year 2003. But I think it does provide an 
important example of the kind of infrastructure that would be 
required to deal with heat waves. And you would recall that in 
2003 in the city of Paris and its surrounding areas there were 
about 30,000 lives that were lost as a result of a heat wave.
    And I might mention this kind of thing happens periodically 
and regularly in different parts of the developing world, 
because you just don't have the health care and early warning 
infrastructure whereby people's lives could be saved. We also 
know that coastal communities and habitats will be increasingly 
stressed by climate change impacts interacting with development 
and pollution.
    So there are going to be a diverse set of impacts of 
climate change on North America which makes it necessary for 
North America to be a part of the solution for global, as well 
as local regions.
    Next.
    Now, I would like to highlight the fact that there is a 
certain inertia in the climate system. If we were to freeze the 
concentration of greenhouse gases, even at current levels, 
further warming would continue for the next two decades at a 
rate of about 0.1 degrees Celsius per decade. So there is 
certain inertia in the system, as a result of which, even with 
very stringent, immediate measures, we would see climate change 
continuing for some period of time.
    And we know that the energy system inertia is also 
particularly relevant, because if you look at buildings, if you 
look at other infrastructure which uses energy, you really 
can't bring about major changes simply because there is a lot 
of locked-in capital in technology which can't be changed 
overnight. So we need to be concerned about the fact that even 
if we were to take very ambitious steps today, we would find it 
very difficult to stop climate change for several decades.
    All of which means that we have to bring about mitigation 
measures as early as possible because, otherwise, the impacts 
of climate change will become more serious over a period of 
time; and therefore, choices about the scale and timing of 
mitigation measures would involve balancing costs of emission 
reductions against the risks of delay. And the risks of delay 
essentially translate into impacts of climate change which 
could become very serious and severe.
    Next.
    Now, this is an important table which I would like to draw 
your kind attention to, and I want to focus on the first row of 
numbers that I have shown over here. The IPCC has examined 
several stabilization scenarios. And the one that is shown at 
the top indicates stabilization at roughly current levels of 
concentration that we have today in CO<INF>2</INF>-equivalent 
terms.
    Now, this would limit temperature increase to 2 to 2.4 
degrees Celsius, and as the chairman pointed out earlier, if we 
were to achieve this particular scenario, it is essential that 
we ensure that the emissions of greenhouse gases don't increase 
beyond the year 2015 and, therefore, they must decline beyond 
that date. This gives us a very short window of opportunity.
    And I might say that the IPCC, of course, does not 
recommend any particular level of stabilization because we are 
an assessment body. But we look at various scenarios and we 
present the facts related to each of these, and then it is 
really up to the negotiators and decision makers on the basis 
of value judgments to decide what it is that would be the right 
level for stabilization.
    Now, here I might say that this is not really such a 
favorable scenario, because if you look at global sea level 
rise as a result of even this fairly ambitious scenario, we 
would have sea level rise due to thermal expansion alone; and 
this does not take into account, I repeat, the melting of the 
ice bodies across the globe. This would give you thermal 
expansion leading to sea level rise of 0.4 to 1.4 meters.
    Now, if you talk to somebody in the Maldive Islands or in 
some of the South Pacific islands, they will tell you that this 
level of sea level increase is going to be disastrous for them. 
And therefore I think what we require is a value judgment in 
deciding where the world wants to stabilize its concentration 
of greenhouse gases. Is this good enough or should we really do 
better progressively over a period of time?
    Next.
    I would like to highlight some of the co-benefits of 
mitigation. And since I have the privilege of addressing the 
Energy Independence and Global Warming Select Committee, 
reducing emissions of greenhouse gases will lead to health co-
benefits from reduced air pollution. There would certainly be 
increased energy security. There would be greater rural 
employment. And as the honorable member has just reminded us 
about the opportunities in the agricultural sector, if we were 
to use renewable energy technologies on a decentralized basis, 
there would be a generation of jobs and employment 
opportunities in several rural areas. And may I emphasize, this 
is of particular relevance to the developing countries where 
you still have a very large percentage of the population living 
in rural areas.
    And there would be benefits of increased agricultural 
production and reduced pressure on natural ecosystems because 
there would be decreased tropospheric ozone concentrations. 
There would also be co-benefits of mitigation action which 
would offset mitigation costs and provide the opportunity of 
no-regrets policy. So, in other words, the cost of mitigation 
should be reduced to the extent that you have these co-benefits 
as a result.
    Next.
    Now, I would like to emphasize the fact that the cost of 
mitigation, even at a very stringent and ambitious level, will 
not be high at all. If you look at the last row in this 
particular table, you will find that stabilization at a level 
equivalent to what I had pointed to earlier, 445 parts per 
million of CO<INF>2</INF> equivalent and thereabouts, would 
result in a reduction of GDP of less than 3 percent in the year 
2030; and this amounts to a reduction of 0.12 percent annually.
    Now, what does this mean in very simple terms? I will turn 
to the next slide. This really--next.
    This means that if there was GDP without mitigation, this 
is the kind of line you would get.
    Next.
    And with mitigation--next--you would get a slight shift of 
this line, which really means that the level of prosperity that 
the world would reach in 2030 would at best be postponed by a 
few months or at the most a year or so. That is clearly not a 
very high price to pay; and particularly if you were to account 
for the co-benefits from mitigation actions, this cost could be 
even lower.
    Next.
    Now, I would like to highlight the fact that--next--all 
stabilizations that we have assessed can be achieved by 
deployment of a portfolio of technologies that are currently 
available or expected to be commercialized in coming decades. 
So we really don't have to wait for anything dramatic or 
anything miraculous; we have all the technologies that are 
required to carry out the mitigation measures that we have 
assessed.
    Next.
    But, of course, this assumes that investment flows, 
technology transfer and incentives are in place for technology 
development; and this only highlights the fact that technology 
by itself is not going to do enough. You really need policies 
and a framework of policies that would lead to development of 
the right technologies and would also lead to their 
dissemination on a large scale.
    And I come more or less to the end of my presentation.
    Next.
    Why should we adhere to deep cuts in greenhouse gas 
emissions? Well, firstly, the world is going to move towards a 
low-carbon future. And if that is the case, U.S. companies must 
look at the opportunities that they have in business if they 
are going to focus on the future. And those companies that 
don't obviously are going to lose in terms of profits as well 
as reputation.
    And may I submit that nations would also fall within a 
certain similar categorization. Those nations that are seen to 
take action will certainly command a lot more political and 
moral power than those that do not. And therefore I think it is 
essential, may I submit, for the U.S. to take action.
    And I go to the next slide.
    The role of the U.S. is critical because it would enable 
the achievement of global stabilization targets, would ensure 
U.S. competitiveness in the world market dominated by low-
carbon products and undoubtedly reestablish confidence in U.S. 
leadership on critical global issues.
    Finally, may I submit before you an important philosophical 
perspective. I think overall we must remember that we as human 
beings are a part of nature. Nature is not subordinate to us. 
And I think it is to the benefit of human society to be able to 
find a pattern of development that ensures the sustainability 
and the conservation of natural resources.
    Thank you very much, Mr. Chairman.
    [The statement of Mr. Pachauri follows:]

    [GRAPHIC] [TIFF OMITTED] T8418A.003
    
    [GRAPHIC] [TIFF OMITTED] T8418A.004
    
    [GRAPHIC] [TIFF OMITTED] T8418A.005
    
    [GRAPHIC] [TIFF OMITTED] T8418A.006
    
    [GRAPHIC] [TIFF OMITTED] T8418A.007
    
    [GRAPHIC] [TIFF OMITTED] T8418A.008
    
    [GRAPHIC] [TIFF OMITTED] T8418A.009
    
    [GRAPHIC] [TIFF OMITTED] T8418A.010
    
    [GRAPHIC] [TIFF OMITTED] T8418A.011
    
    [GRAPHIC] [TIFF OMITTED] T8418A.012
    
    [GRAPHIC] [TIFF OMITTED] T8418A.013
    
    The Chairman. Thank you, Dr. Pachauri, very much.
    And I will turn and recognize the gentleman from Washington 
State, Mr. Inslee, for 10 minutes.
    Mr. Inslee. Doctor, thank you for closing with a quote from 
Chief Seattle about us being part of the web of life. We 
appreciate that. I can tell you the Chief's spirit is still 
alive in Seattle, and that is where we are fighting to keep our 
snow and our salmon and our orcas, all of which are endangered 
by this problem. So I really appreciate your honoring us with 
Chief Seattle. I hope you spread it around the globe. I think 
it works everywhere around the planet.
    I want to focus on what should be our relatively short-term 
targets, and I have to tell you that I have been very active on 
this front now with many members of this panel, but I have been 
stunned by your science that your team has developed on a level 
of how fast we have to move.
    Several years ago I was thinking, well, we have to get 
ready for 2050. Your science has been a real dash of cold 
water, telling us, no, we have got to get ready by 2015 and 
2020. And I want to ask you for your advice in that regard.
    First off, I want to talk about the level that might get us 
into problems. And I was looking at your report, and it 
suggested that at a 2.5 Celsius level, if we are successful in 
holding the increase to 2.5 degrees Celsius, that still will 
result in a significant risk of extinction of 20 to 30 percent 
of all the species on the planet. So somewhere approaching a 
fifth to a third of all the species on the planet could be gone 
forever if we hold it at 2.5 degrees Celsius.
    Now, to me, that would be an absolute minimalist's goal, 
because we are still going to have significant loss to the 
planet at that level.
    I then go down to the next several pages of your report, 
and you are telling us that to hold the world at that level we 
have got to peak CO<INF>2</INF> emissions by 2015 and the 
industrialized world, including America, has to go down by 25 
to 40 percent below 1990 levels by 2020, 20 to 40 percent 
reductions below our 1990 levels by 2020.
    Now, the reason I want you to address this target is that 
that level, which to me is absolutely minimal, we ought to be 
more aggressive than that as our target, because losing more 
than a third of our species to me is incomprehensible. And yet 
I must tell you that no bill, to date, has been introduced in 
the U.S. Congress to come anywhere close to those target 
levels, including ones that I have introduced. And that is 
going to change; we are going to be introducing legislation to 
get to closer to those targets.
    But I think your visit here today could be a real eye-
opener to my colleagues about why that is short-term--and we 
are all talking about 2050--why that short-term target is so 
important and why it has to be more aggressive than, frankly, 
anything we are talking about.
    We have got a bill to have a level of 1990 levels by 2020 
that has moved through the Senate committee, and frankly, from 
your scientific testimony, that appears wholly inadequate to 
the task at hand.
    So I guess, if you could, just elaborate on those levels 
and the 2020 targets we should be thinking of as industrialized 
countries.
    Mr. Pachauri. Thank you for that comment and question, sir.
    May I submit that the issue of deciding where the world 
should stabilize the increase of temperatures and, therefore, 
of concentration levels really involves a value judgment; and I 
think an issue that is often ignored is the whole equity 
dimension of this problem.
    If one talks to somebody, let us say, in the Maldive 
Islands--and the President of the Maldives, in fact, is coming 
over to a major event next week in New Delhi that I am 
organizing--he will tell you that they are already in peril; 
because most of the islands in that nation are at a height of 1 
meter or a maximum of 2 meters above sea level, and they don't 
even have to wait to be inundated.
    I remember that in 1997 the IPCC held its plenary session 
in the Maldive Islands. And President Gayoom stood before us 
and he said, ``Ladies and gentlemen, 10 years ago the place 
where you are holding this meeting was under about 2 feet of 
water.'' Because they have strong surges, they have natural 
events which, with the high level of the sea, only inundates 
large areas of land.
    So the point I would like to make, sir, is the fact that 
when we are thinking of a global target, we really need to look 
at some of the equity implications offsetting that target.
    If you look at the country of Bangladesh, they have a large 
coastline, highly vulnerable to all kinds of natural disasters, 
which become so much worse with sea level rise. But how are we 
going to protect them? It is a densely populated country, 
highly dependent on agriculture, and every time they have a 
massive coastal flood, they find it very difficult to save 
lives and property.
    Now, you really can't create infrastructure for them like 
the dikes in the Netherlands. Perhaps that might be feasible, 
but the kinds of resources that would be required would be 
very, very high.
    If you look at the Himalayan range where the glaciers are 
melting very rapidly, and the entire reverse systems going into 
the northern part of the subcontinent and parts of China 
originate in these glaciers. And with the reduced flow that we 
project, there would be about 500 million people in South Asia 
that would face fairly serious reduction of water availability 
and about 250 million in China.
    The reason why I am mentioning these facts, sir, is because 
when we set a target at the global level--and I hope the U.S. 
would be a leader in establishing these targets--we need to 
look at what is going to happen around the world.
    And I would agree with you as a human being, not 
necessarily as Chairman of the IPCC, that we need to question 
this figure of 2.5 degrees Celsius increase in temperature. Is 
that good enough or should we be looking at something less? And 
I think that is an issue that negotiators and political leaders 
need to decide.
    And as you rightly mention, species loss of 20 to 30 
percent is clearly a huge loss that we have to do everything to 
prevent. It could make such a difference to ecosystems across 
the planet, it could make an enormous difference to economic 
activities that human beings are responsible for, that we 
really need to look at this issue.
    And it involves a value judgment, it involves looking at 
what is going to happen to the rest of the world. And I think 
it is for a leader in the global comity of nations like the 
U.S. to start articulating some of the measures that are 
required.
    So I would say that the IPCC's assessment of industrialized 
countries reducing emissions by 25 to 40 percent by 2020 is 
based on this particular stabilization level. But maybe this is 
something that needs to be revisited 5 or 10 years in the 
future. For the time being, perhaps, if we want to stabilize at 
that level of 2 to 2.4 degrees Celsius, then clearly this is 
something that is inevitable; and peaking by 2015 is an 
essential part of such a strategy.
    May I just say in conclusion, I suppose it is for this 
reason that the conference of the parties in Bali spent so much 
time and attention talking about this 25- to 40-percent 
reduction figure. Of course, this was not accepted in the final 
statement, but I am happy to see that at least the wording in 
the final statement called for deep cuts in emissions; and I 
hope nobody waters down those deep cuts, because we do need 
deep cuts in emissions.
    Mr. Inslee. So I take it, your scientific assessment is, if 
all industrialized nations followed the most aggressive bill 
that is in the U.S. Congress right now, it is the bill that has 
gone to the Senate, it would simply call for the United 
States--and for the purposes of this question, we will assume 
all industrialized nations met this level--it simply called for 
reaching 1990 levels by 2020, not that 25- to 40-percent 
reduction you have suggested. If, in fact, that is the goal and 
if, in fact, that goal was met, it would still result in a more 
than 50/50 proposition of losing 20 to 30 percent of our 
species, substantial loss of shorelines, substantial loss of 
agricultural productivity and substantial loss of water, and we 
would still have these.
    Mr. Pachauri. We still would have these. We will still have 
more heat waves, we will still have extreme precipitation 
events and we will still have this commitment to sea level rise 
which, due to thermal expansion alone, would be quite 
significant.
    Mr. Inslee. And this is a nonscientific statement.
    But as a human being, stepping out of your hat as IPCC 
Chairman for the moment, would you agree that every culture and 
community in the world would believe that this is unacceptable 
and, therefore, believe that we ought to have a more aggressive 
target than that 1990 level for industrialized nations?
    Mr. Pachauri. As a human being, sir, this prospect causes 
me deep anguish, because I would really question whether human 
progress that is going to result in these kinds of outcomes can 
really be labeled as human progress.
    Mr. Inslee. I appreciate that.
    I don't want to leave under that note of gloom. I want to 
suggest we are fully capable of solving this problem. I gave 
you a book I have written about this. We are advancing this 
issue in Congress. We are going to join you in this effort. 
Thank you very much.
    The Chairman. The gentleman's time has expired. The Chair 
recognizes for 10 minutes the gentleman from Missouri, Mr. 
Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman. I won't take the 10 
minutes, and I am probably not going to be able to stay and 
listen to a gentleman that I have a great deal of admiration 
and respect for.
    In fact, I would like to apologize to you and the other 
scientists who have done so much work to bring us to this 
point. My level of embarrassment was rising with the sea level 
when Harlan Watson, who represented the United States in Bali, 
said that we are ``not ready to commit.'' And those four words 
are probably the words that have been used in every generation 
to slow progress: We are ``not ready to commit.'' So I 
appreciate all of the work that you have done.
    I have got to go and catch a bus outside.
    The question that I would love to have time to listen to 
you respond to is, if all of the CO<INF>2</INF> emissions were 
stopped today at a quarter to 10:00, what would happen and what 
could be reversed? I am going to submit a statement, Mr. 
Chairman, and hope that if you have time to respond to that 
question, that I can get your answer through the committee.
    Thank you very kindly.
    The Chairman. I know the gentleman has to leave, but I 
think, with the acquiescence of the other members of the 
committee, we would like to have you answer that question right 
now, if you could. And we understand the gentleman from 
Missouri has urgent business that he has to attend to, but we 
thank him for coming.
    But please respond to the question, sir.
    Mr. Pachauri. I would like to respond to the honorable 
member that I would be very happy to send you a detailed 
response to this question, sir.
    But in summary form, let me say that if we were to stop all 
emissions today, climate change would still continue for 
several decades, and that is precisely why we cannot allow this 
state of affairs to continue. Because if we don't do anything, 
then clearly the impacts will become far more severe and far 
more difficult to handle.
    But this also highlights the importance of adaptation 
measures because if climate change is to continue, as we know 
it will, irrespective of what we do today, we need stringent 
mitigation measures to minimize, postpone, delay or avoid 
future impacts. But at the same time we would also need to take 
several adaptation measures to be able to handle the impacts of 
climate change that are going to take place in the future.
    But I would be very happy to send you a detailed response, 
sir.
    Mr. Cleaver. Yes. I would appreciate it.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentlelady from South Dakota, Ms. 
Herseth Sandlin, for 10 minutes.
    Ms. Herseth Sandlin. Thank you, Mr. Chairman.
    Again, Doctor, thank you for your testimony. And if we 
could spend a few minutes on agriculture, if you could, respond 
to this proposition: I have a constituent in the western part 
of South Dakota who believes quite strongly that the 
agricultural sector, not just in the United States, but across 
the world--but in the United States in particular--is essential 
to transitioning from where we are now in deploying new 
technologies, particularly in the coal-fired plant facilities 
for electricity generation, because he feels that there is 
potential within the agricultural sector to work as a carbon 
sink so that the greenhouse gas emissions don't get any worse 
from now until we get these new technologies on line.
    Would you respond to that proposition? Do you agree? 
Disagree? And if you agree, how imperative is it that 
agriculture be participating in a cap-and-trade system if 
indeed that is the direction that we choose to go in the United 
States, but also perhaps integrating agriculture into the 
European cap-and-trade system.
    Mr. Pachauri. Conceptually, ma'am, I think, yes, 
agriculture should be a part of any such scheme that involves 
mitigation of greenhouse gas emissions. And I would combine 
with this forestry options as well, because anything that grows 
by way of biomass has the potential to fix carbon dioxide, and 
I think it should be part of an accounting system.
    But having said so, there are problems in terms of 
measurement, verification and monitoring, all of which need to 
be sorted out.
    I think it is also essential for us to look at the net 
emissions from agriculture. And in several parts of the world 
these are quite serious; they do result in greenhouse gas 
emissions. So we will need to modify agricultural practices. In 
some cases, we might even have to design new crops. And this 
may be essential simply because there is likely to be a decline 
in the yields and productivity of some crops. And, therefore, I 
think there is a huge research region and development agenda, 
which I think countries like the U.S. can really take a 
leadership role in and provide answers for the rest of the 
world.
    I mean, this is a country that really brought about the 
green revolution in the rest of the world. What we need now is 
a new kind of revolution, which hopefully will also help to 
reduce the net emissions of greenhouse gases in the atmosphere. 
So this could become a major objective in terms of research and 
development.
    Ms. Herseth Sandlin. Thank you so much for your response, 
because you have touched on a couple of other issues I would 
like to explore.
    Given the realities that you have illuminated through the 
scientific analysis that Mr. Inslee was exploring with you, as 
well, the recognition that given the projections and the 
pressure and the demand by many for industries to adapt, I also 
think it is very important that nongovernmental organizations, 
that environmental organizations in particular, also take a 
step back and reassess the positions that they have advocated 
in the past in light of the imperative of acting to reduce 
greenhouse gas emissions.
    So when we passed the energy bill last December, 
unfortunately, at the last minute, a change was made to the 
definition of biomass as it related to the participation and 
the renewable fuel standard to prohibit the use of biomass off 
Federal lands for qualifying toward meeting the targets in the 
renewable fuel standard--biomass in a national forest that, if 
it is left to rot its methane into the atmosphere, biomass 
that, if burned, emits carbon into the atmosphere.
    And I understand that we have to make sure that we are not 
turning our national forests into fuel farms. No one wants 
that. But within the existing forest planning process I think 
we can address these issues. And so when you mentioned forestry 
practices, I think that not only in the discussion of 
deforestation and the problems associated with that and finding 
the right balance between the need for increased yields in crop 
production so that we have food security and also its role in 
energy security, I do appreciate your reference to biomass.
    And I would just bring to my colleagues' attention on the 
committee that I am introducing a bill to fix the definition. I 
think it needs a fix in biomass to allow the use of biomass off 
Federal lands in the United States to participate in the 
renewable fuel standard.
    It was an egregious change at the last minute, we had a 
consensus on that definition; and I would like your ideas on 
whether or not you think, from your experience, biomass whether 
it is off Federal lands in the U.S.--or maybe you could 
elaborate when you referenced ``biomass''--being an important 
part of evaluating the forestry options as it relates to 
agriculture.
    And then also the design of new crops: We have a lot of 
organizations across the world that are opposed to genetically 
modified organisms. Now, as it relates to food scares in other 
parts of the world, I have been eating GMOs for over 10 years; 
a lot of us have here in the United States.
    But when we are talking about biofuels production and we 
are talking about drought-resistant crops to be grown in 
different parts of the developing world, as well, I think that 
that is another area where people have to take a step back and 
say, what is the reality of today and do we need to reassess as 
it relates to the priorities of what we are dealing with 
environmentally, as well as the energy security issues and food 
security issues.
    So if you could maybe elaborate just a little bit more on 
the reference to biomass and forestry practices and the issue 
of genetically modified organisms as it relates to the crop 
varieties, that even if there continues to be resistance on the 
food front, that we have to address the issue of crop 
varieties--whether GMOs, drought-resistant, what have you--to 
address the issue of water resources and increasing crop yields 
in light of the climate change challenges we face.
    Mr. Pachauri. I would agree with you on this approach, 
ma'am, because I really think we need to look at new scenarios 
of how biomass can be part of the solution not only in terms of 
reducing emissions of greenhouse gases, but providing food as 
well as fuel.
    Now, it is obvious that if we can come up with a technology 
that converts cellulosic material into liquid fuels, for 
instance, it just opens up a huge opportunity. There are parts 
of the world with large quantities of agriculture residue, 
which is really a nuisance, and it is just burnt on the fields. 
Now, if you had a technology by which this residue could be 
converted to useful energy, then I think it just opens up an 
enormous opportunity.
    And this is where I would submit that research and 
development in this country can make an enormous difference. It 
creates opportunities for the world as a whole. And I think if 
we can develop such a technology, there are large areas of 
wasteland in different parts of the world where you could grow 
inferior crops, inferior forms of biomass which may not have 
any other purpose, but can be converted as cellulosic material 
into useful fuels.
    So I think this is where imagination has to be exercised.
    On the issue of GMOs, I mean, I fully appreciate that we 
have to build in safeguards. We have got to carry out trials, 
we have got to make sure that there are no ill effects from any 
kind of genetically modified crop.
    But you don't make the best the enemy of the good. You just 
don't throw the baby out with the bathwater. And I think it is 
absolutely essential for us to look at the potential of GMO. I 
mean, this is science which can work to the benefit of the 
human race, so why should we not work with opportunities by 
which, who knows, in the future perhaps you don't need dwarf 
varieties of crops, you might need those that have large 
quantities of biomass and much taller variety, so that, quite 
apart from giving you food, these will also give you large 
quantities of fuel.
    So I really think that in the agricultural sector we need 
to look at a whole range of scenarios and exercise our 
imagination by which we can then lay down research and 
development priorities and come up with some of these 
solutions. I think the agriculture sector can really make an 
enormous difference in this entire field. There is a huge area 
of land in different parts of the world that could be used 
fruitfully for producing some of these products and energy.
    Ms. Herseth Sandlin. Thank you very much for your 
testimony.
    And you may know this already, but I think I have mentioned 
it to the chairman, as well, and to Mr. Hall, there is a 
technology that exists currently in Upton, Wyoming, right 
across the border from South Dakota where they have been using 
slash piles off the national forests in the Black Hills, and 
off private lands, as well, to convert woody biomass into 
cellulosic ethanol; and they are looking to expand not only at 
that plant, but elsewhere throughout the region.
    And I am sure you can imagine their response when the 
biomass definition in the energy bill would not allow them to 
qualify toward the RFS when they couldn't use the slash piles 
off the national forest. And here they are ready to move us 
forward within the next year or two toward commercial 
development of cellulosic ethanol; and yet they now face some 
barriers to their potential growth and sharing that technology, 
obviously moving that technology to benefit the economic 
situation here in the marketplace overall.
    So thank you very much for your testimony and your 
insights.
    The Chairman. The gentlelady's time has expired.
    The Chair recognizes the gentleman from New York State, Mr. 
Hall.
    Mr. Hall. Thank you, Mr. Chairman. And I apologize for 
being late and I apologize to the witness as well.
    Congresswoman, I would be happy to support your bill. We 
have in my district and in the Hudson Valley several cellulosic 
ethanol producers who are currently operating, one of them 
being a wood sustainable tree farm, which is making high-end 
furniture for sale in New York business rooms, big, large 
conference tables that are varnished within an inch of their 
lives so that you can see your reflection off the wood. And 
they take all the sawdust and all the leaves and twigs and the 
little wood cuttings from the ends of the boards and grind them 
and put them into the enzyme vat and the biodiesel generator, 
and they run all their farm vehicles and all of their road 
vehicles off of their own biodiesel. And they plant as many 
trees as they cut.
    They are not in a position, because it is not that they 
didn't attempt to do this, but they are not in a position to 
sell at this point, but they are certainly self-sufficient; and 
it is a break-even--better than a break-even process.
    And then there is another, at least one more commercial 
biodiesel--actually, a very interesting project in my district 
which involves converting municipal solid waste after humans 
and machines remove such things as batteries and pesticides and 
other household hazardous waste that you don't want to get into 
the environment, and recyclables.
    And then they end up with paper waste, wood waste, plant 
waste, farm waste, et cetera, et cetera. All goes into a 
gasification process which then spins a turbine and generates 
tens of megawatts of power and ethanol at the same time. And 48 
percent of the gas that they generate is hydrogen, so they can 
actually charge hydrogen fuel cells--if we ever get to the 
point where you have cars to do that--from the gas that they 
are currently producing.
    So it is not even so much a matter of research and 
development, although that is certainly needed; but there are 
technologies where it is just a matter of investing in them and 
yet just building them.
    And in terms of the biomass that is removed from national 
parks or from private land, I think that the equation has to do 
with how much fossil fuel of what kind has to be burned to 
provide the energy to get that out to the facility where it is 
converted to cellulosic ethanol, and making sure that is a net 
gainer. And the solution to that is to have those vehicles and 
those machines be driven by renewables to begin with.
    Mr. Hall. But anyway, to my questions. We just had in the 
last 3 years, in my district in New York, three 50-year floods, 
floods that are only expected in that intensity once every 50 
years. Is that consistent with the computer models that you 
have been looking at?
    Mr. Pachauri. Sir, if I might respond, around the world, 
essentially some of these floods are going to become more 
frequent and certainly more severe. So I think when we talk 
about adaptation measures, then clearly we would have to take 
into account the responses that society should build in to 
something that, let's say, happened once in 50 years now 
occurring every once in 5 years or so.
    Mr. Hall. Right. I mean, part of my job as a 
Representative, I think, is to be a two-way conduit of 
information from my constituents as I represent them here in 
the United States Congress, but also to try to bring back 
information such as you are providing for us today and to 
educate them and pass on the information to them.
    And, you know, with that in mind, I would also ask--I know 
that there can be anomalies and that the overall trend has ups 
and downs and a cycle, a natural cycle of warmer and colder, 
but that the overall trend is warmer. The fact that we have had 
two winters now in the Northeast, where, in northeast Dutchess 
County, which usually is pretty cold up on the ridge that I 
live on, and snowy, we have had, the last 2 years, daytime 
highs between 50 and 60 degrees Fahrenheit right through the 
winter holidays, the Hanukkah, Christmas, New Year's holidays 
and into January, and then relatively light snow events 
followed by quick thaws and, at this point, have a snow pack 
that is to be measured in a few inches as opposed to what used 
to be feet, would that be consistent with the models that you 
are seeing?
    Mr. Pachauri. Yes. In fact, here again may I say globally, 
sir, 11 of the 12 warmest years in history, since we have had 
instrumental record of temperatures, have occurred in the last 
12 years.
    And I can tell you from my own experience, I was born in 
the mountains in India, and I remember looking at the snow 
capped peaks, the highest peaks in the world. I went to one of 
these places where I could get a beautiful view of these 
mountain peaks during Christmas this last year in December, and 
I couldn't believe the thin covering of ice that I saw on these 
peaks.
    It is happening the world over. I have been to the Arctic 
region, and you just have to see to believe what is happening 
over there.
    Mr. Hall. Thank you, Doctor.
    I was in Los Angeles on Sunday and just out there for a 
day, but the lady who picked me up at the airport in a driving 
rain storm--I think it was the third day they had had of record 
rainfall and mudslides and so on. And she told me there had 
been a tornado that touched down, I think it was in Hollywood 
or somewhere close to there, on Sunday, and it was the first 
one anyone could remember in the Los Angeles area. I am sure 
that it must have happened sometime. But that sort of extreme 
weather event would also be consistent?
    So, whereas any one of them by themselves does not prove 
anything, at some point one might look at these extreme weather 
events around the world, whether we have been fortunate in the 
last few years to dodge another Hurricane Katrina, but the 
Yucatan Peninsula got hit and that area of Central America and 
Mexico was hit this past summer during hurricane season very 
hard, and there was a supercyclone in Bangladesh and other 
places. So I am just trying to make sure that we, as Americans, 
and my constituents understand the connection between them and 
the changes that we see in the Arctic and the Greenland ice 
sheet and other projected changes that you described in your 
testimony.
    As you know, this year we passed--or last year, in 
December, the Congress passed energy legislation with an 
historic increase for our country in vehicle fuel economy and 
energy-efficiency measures. Can you briefly discuss what impact 
these actions have had, if any, on the views in the IPCC or 
internationally about U.S. efforts?
    What else can Congress do to send a message to the rest of 
the world that we are serious about fighting with other 
countries against climate change?
    Mr. Pachauri. If you grant me the privilege to let me just 
respond to what you said about these extreme events.
    We have found, for instance, that extreme precipitation 
events--that means heavy quantities of precipitation in short 
periods of time--are on the increase and will continue to 
increase. So what you described in Los Angeles, of course, 
could be an isolated event, but if one was to look at the 
trend, that is the kind of picture that one can foresee.
    On the issue of the energy bill that came into existence in 
December, I think this clearly sends a very favorable message 
around the world. Because, if I could be candid, the perception 
around the world is that the U.S. has not been really active in 
this area. The U.S. did not ratify the Kyoto Protocol. 
Australia didn't do it, but now with the new government one of 
the first things they did was to ratify the Kyoto Protocol. And 
I think this legislation has certainly made a difference. It 
has certainly created, I think genuinely, an impression that 
the U.S. is now serious about business.
    On the question that you asked, though, on what else needs 
to be done, may I submit that I think the starting point would 
be to say that the U.S., like other developed countries, is 
going to stabilize the concentration of greenhouse gases at a 
particular level that could be decided on, and then work 
backwards to see how you might be able to implement measures to 
achieve those levels.
    Now, one of the things that we have brought out very 
clearly in the IPCC reports is, firstly, you need policy 
measures to bring about technological change. You certainly 
need a price on carbon, because if you want to use the market 
to bring about changes in the future, unless you price carbon 
appropriately, I don't think you would get the research and 
development efforts, the technology development efforts to give 
you the kinds of outcomes that you are looking for.
    So I think there are some measures that would have to be 
put in place to bring about a pricing of carbon at an 
appropriate level. This may involve taxation, this may involve 
cap and trade systems, but I think that is absolutely critical.
    Mr. Hall. Thank you very much.
    My time has expired, but if I may, I just wanted to ask one 
more question, which is, since the Hudson River, which splits 
my district--I have three counties to the east of the Hudson 
and two to the west. And the Hudson River is tidal all the way 
from New York City up to Troy, just north of Albany, New York.
    And I would like my constituents to have some idea what 
they can expect, since the freight rail line on the west bank 
of the Hudson and the passenger rail line on the east bank of 
the Hudson are only a few feet above the current river level, 
and many communities have spent a lot of money and people have 
invested time and energy and are very excited about rebuilding 
their waterfronts with restaurants and shops and promenades and 
so on, how high might we, in a sort of medium-case and then a 
worst-case scenario--I assume you don't think that we are 
likely to achieve a best-case scenario. But if we achieve a 
medium--and then a worst-case scenario, how high would you 
expect a tidal estuary like the Hudson to rise in the next 50 
years, say?
    Mr. Pachauri. To be quite honest, one would have to carry 
out very specific modeling of that region to see what is going 
to happen. But our projections for sea-level rise by the end of 
this century lie between 18 to 59 centimeters. So, let's say if 
average sea-level rise--which doesn't mean this will be uniform 
across the globe--was to be anywhere close to the upper end of 
our projections, then you are talking about half-a-meter 
increase in sea levels. And with storm surges, with all kinds 
of natural events----
    Mr. Hall. Tides.
    Mr. Pachauri [continuing]. That clearly poses a very 
serious problem.
    Mr. Hall. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman very much.
    And the Chair will now recognize himself for a round of 
questions. And I think we will have an opportunity to come back 
to the members if they have other questions which they would 
like to ask.
    You have already spoken, Dr. Pachauri, about the fact that 
the level of global warming pollution could keep the 
temperature rise to upwards of 4 degrees Fahrenheit. The IPCC 
has reviewed over a hundred greenhouse gas stabilization 
scenarios. And recently Jim Connaughton in the White House, on 
President Bush's staff, described all of those scenarios as ``a 
range of responsible paths.''
    Do you agree with that statement?
    Mr. Pachauri. Well, the IPCC has looked at a whole range of 
outcomes, and we, of course, are in no position to predict how 
the economy is going to grow, how technology is going to grow. 
What we have is a range of plausible scenarios, and we have a 
high level of confidence that these scenarios essentially 
represent the kinds of outcomes that we are likely to see in 
the future.
    And as part of that, we have examined the stabilization 
scenarios, one of which I directed your attention to, Mr. 
Chairman. It is obvious to me that if we want to limit 
temperature increase to a level like, say, 2 to 2.4 degrees 
Celsius, then we necessarily have to stabilize the 
concentration of greenhouse gases at 445 parts per million of 
CO<INF>2</INF> equivalent and above, slightly above, which is 
more or less where we are today. And that is precisely why we 
came up with this deadline, if I could use the term, of 2015 by 
which we would have to ensure that we start reducing emissions 
globally.
    So I would say that the scenarios that we have looked at 
are plausible; we stand by them. And if we have to limit 
temperature increase to anything that the world decides on, 
then those are kinds of trajectories that we will have to 
achieve.
    The Chairman. So under the scenarios which you looked at, 
could you talk about some of them at higher temperatures, at 
higher degrees of Fahrenheit increase, another 2 degrees 
Fahrenheit, another 4 degrees Fahrenheit, in terms of the 
impact that it would have upon the world? As you examined those 
patterns, what was the conclusion the IPCC came to, in terms of 
how the world would be affected?
    Mr. Pachauri. For the first time, we have come up with a 
table which clearly shows temperature increase and a range of 
impacts that are going to occur in areas like water, 
ecosystems, food security, human health. And this particular 
table, which I would be very happy to draw your attention to, 
Mr. Chairman, clearly indicates that anything that goes above 2 
degrees Celsius is really going to cause some very serious 
problems.
    The Chairman. And 2 degrees Celsius translates into what 
Fahrenheit, about 4 degrees Fahrenheit?
    Mr. Pachauri. Roughly, roughly, 4 degrees Fahrenheit.
    So I think that if one was to link that temperature 
increase with the kind of impacts that we will face--again, one 
is looking at different regions of the world. Some of them, of 
course, will be much worse hit than other regions. I mean, I 
gave some numbers about Africa, for instance. We would find 75 
million to 250 million people in Africa suffering from water 
stress by 2020. And that is a pretty serious situation, because 
there already is a very serious problem of water availability 
in several parts of Africa.
    Food security is another area. And may I mention that 
climate change is going to add to existing stresses. Now, the 
entire agricultural subsidy problem really impacts unfavorably 
on a number of poor countries, where farmers really are not 
able to compete with subsidized food produced, let's say, in 
Europe or possibly in North America. And on top of that, if 
they have decline in yields as a result of climate change, it 
really wipes them out. They really don't know how to survive.
    The Chairman. Now, could you talk to us a little bit about 
some of the other benefits that the world would derive in the 
public health sector from the efforts to reduce CO<INF>2</INF>, 
in terms of how that would also have the same benefits or 
similar benefits in reduction of sulfur and the reduction of 
other pollutants that contribute to smog, that contribute to 
other public health problems? How does all of that interrelate, 
in terms of the public health impact on the planet?
    Mr. Pachauri. Yes, sir. I think there is a range of health 
benefits that would accrue from stabilizing the world's 
climate.
    Firstly, heat waves. We know, as temperatures increase, as 
climate change progresses, heat waves will become more 
frequent, more intense. And these, obviously, are a great 
health hazard. They can affect morbidity and mortality of large 
populations, as we have seen, for instance, in the case of the 
heat wave that took place in Europe in 2003.
    We know that vector-borne diseases, including diseases like 
malaria, would be on the increase. Just to give you an example, 
recently there has been an increase in diseases in countries 
like Italy, where temperatures have been going up. And a lot of 
the pests, a lot of the vector-borne diseases would become more 
prevalent with higher temperatures and changes that are taking 
place.
    The increase in floods and droughts have major implications 
for health. Every time there is a flood anywhere in the world, 
the biggest challenge for policymakers and health officials is 
to see that you minimize and control the outbreak of disease as 
a result of flooding.
    So there is a whole range of these benefits, health 
benefits, that would arise if we were able to stabilize the 
concentration of greenhouse gases and temperatures.
    And the converse of that is, if we don't do anything, then 
I think the health problems all over the world will also have 
major economic impacts. If one looks at factories and 
businesses and if we find people are going to suffer from 
disease to a much greater extent, this would obviously have a 
major harmful impact on productivity of various goods and 
services.
    The Chairman. Could you tell us what the most recent 
developments that have been identified in global warming are of 
greatest concern to you, that scientists never anticipated 3 to 
5 years ago?
    Mr. Pachauri. I think one issue that is causing a lot of 
concern among scientists, Mr. Chairman, is the possibility of 
collapse of the Greenland and West Antarctic ice sheets. And if 
that were to happen, then essentially we would be changing the 
geography of this planet, because you would have sea-level rise 
of several meters.
    Now, I am not saying that there is any great certainty 
attached to that happening, but recent writings seem to raise 
that concern to a much greater extent than was the case, say, 5 
years ago, because we find that there is much greater evidence 
of changes taking place in these large bodies of ice that are 
sitting on large areas of land. And if they were to collapse, 
then we would really have a very serious crisis, as far as sea-
level rise is concerned.
    The Chairman. Now, we just failed in the United States 
Congress by a small number of votes to put on the statutes of 
the United States a requirement for the production of renewable 
electricity as a national standard.
    Is it important for the United States to set a national 
standard, to set an example for the rest of the world? And if 
that did happen, what would the benefits be to the planet if we 
had a revolution in renewable electrical generation?
    Mr. Pachauri. I could draw an analogy with the CAFE 
standards for the automobile industry. They clearly had a major 
impact in terms of producing global benefits through energy 
security, because automobiles across the world improved their 
efficiency levels. And I would say that, in the case of 
renewable energy, any such measure will spur a substantial 
amount of research and development, bring about reduction in 
costs of some of these technologies. And this would have global 
benefits.
    And this would also provide commercial opportunities to 
American companies. I mean, if one looks at what has happened 
to the renewable energy industry, say, in Germany, there has 
been a renaissance of this particular industry. And a number of 
companies that were in the conventional energy business are now 
thriving because they are producing renewable energy goods, 
because there has been a very proactive policy, for instance, 
in that country, in Germany, which has promoted renewable 
energy in a big way.
    So I think there would be just substantial benefits. And 
the benefits in terms of energy security worldwide, and 
certainly for this country, which is so dependent on oil 
imports, I would say are incalculable, incalculable. They would 
be huge. So I think a measure of this nature would really make 
an enormous difference in stabilizing the concentration of 
greenhouse gases.
    The Chairman. Thank you.
    The time of the Chairman has expired. Let me recognize the 
gentlelady from South Dakota for a second round for 5 minutes.
    Ms. Herseth Sandlin. Thank you, Mr. Chairman.
    And the renewable electricity standards certainly would be 
important not only here but across the world in developing wind 
and solar technologies. Just as you were saying, in terms of 
waste land or other less fertile land where you could grow 
maybe inferior crops for food, you could grow certain crops for 
fuel, renewable fuels production, similarly we have great 
swaths of land in the Great Plains with wind resources, and the 
American Southwest, and then of course the biomass in the 
Southeast.
    And so I am pleased that the Chairman probed, sort of, that 
topic and the importance, too, of the infrastructure necessary 
with the electricity grid. Because we know what we did in the 
energy bill helped us on the transportation fuel side and its 
contribution to greenhouse gases, but we also know on the 
electricity side that that contribution is even greater, and 
hope that those new energy sources would be deployed to 
developing countries or those that are beginning to match the 
United States in terms of energy consumption.
    You had mentioned previously, in response to Mr. Hall's 
questions, the importance of the market signals of a price on 
carbon. And I know I am sort of probing here with you some 
policy versus the scientific analysis that you have done. But 
in all of your discussions with those around the world and how 
we best send the market signal without doing damage to GDP in 
the short term or the long term, looking at, again, the 
opportunity for economic growth in light of your example of 
Germany and how we have lost market share here in the U.S. in 
renewable technologies to Japan and Germany and other 
countries, is there a consensus that is emerging as it relates 
to cap and trade and how you allocate the allowances versus a 
carbon tax?
    At least at this stage of the discussion here in the United 
States, my preference would probably be cap and trade, and 
that, based on an auction of the allowances, you could generate 
a revenue stream to help soften the economic blow to lower-
income Americans, put that money toward R&D, as well, and 
infrastructure development.
    And I also think that, given the complexities of the 
measures, whether it be in agriculture or other sectors, it 
seems to me you can, over time, perhaps more easily develop a 
global market and allow the market to help us, versus a carbon 
tax that may be different in different countries and the 
political challenges that we face. And I don't know if a carbon 
tax as it relates to imports, exports, and how that frustrates 
international trade.
    Do you have any thoughts, based upon your conversations 
with policymakers in other parts of the world, as to whether or 
not any consensus is emerging in terms of a preferred approach?
    Mr. Pachauri. Ma'am, I think we would really need a 
combination of approaches. One would be essentially through 
cap-and-trade types of measures. You would also need some 
regulation. I mean, whether one looks at appliances or 
automobiles, setting certain standards and benchmarks, even in 
the case of buildings, would make an enormous difference, 
because in the building sector we do consume a lot of energy. 
And much of that can be reduced through the right kinds of 
technologies and know-how built into the design of buildings.
    And may I also say that perhaps taxation measures can make 
a difference. Take the case of automobiles. Perhaps there ought 
to be a higher tax on inefficient vehicles rather than 
efficient vehicles. And I think there could be incentives being 
provided to efficient devices.
    So it seems to me one needs a combination of regulatory 
measures, one needs taxation and fiscal measures, and perhaps 
the creation of a market through maybe a cap-and-trade type of 
system.
    And I think all of this will place a price on carbon. Once 
we see carbon being priced in the market, there would be 
research and development efforts being made to come up with 
low-carbon solutions. And even the consumer would react to 
these signals in the market and perhaps go in for goods and 
services that represent much lower carbon intensity.
    So I think we need a package and a mix of measures. And the 
debate should really look at how the public is willing to 
accept a mix of these and how one might be able to bring about 
a transition without too much of hardship to any section of 
society.
    Ms. Herseth Sandlin. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Great.
    The gentlelady's time has expired. The Chair recognizes the 
gentleman from New York, Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman, and thank you for 
indulging a second round of questions.
    I was just looking at your recommendations, the panel's 
recommendations for mitigation. As I understand it, one of the 
problems with global warming is the warming of the oceans, and 
not just saltwater but also large freshwater bodies or rivers. 
I see you nodding.
    In your discussions or studies about nuclear power, which 
is the one thing in your energy supply recommendations and the 
panel's recommendations that I have a problem with, several 
problems with, did you discuss the millions of gallons a day 
that go through the reactor? For instance, in my district, 
taken out of the Hudson River, circulated and returned to the 
river in a stream of water so hot that it kills the fish in the 
river if they happen to be too close.
    Given that we have in this country 103 operating nuclear 
plants at this point, and that some plans would call for that 
to be multiplied worldwide, is there a point at which the 
direct warming of these bodies of water by using them to cool a 
nuclear core essentially has the same effect of warming the 
ocean?
    Mr. Pachauri. We have assessed some of these implications 
of expanded nuclear power generation, but, to be quite honest, 
we really would have to do that on a very specific location 
basis to be able to come up with what the local implications of 
any such measures should be.
    I do recall when I was doing my doctoral work in North 
Carolina, there was major plant that was being proposed in 
North Carolina, a nuclear power plant, and that would have 
raised the temperature of a body of water by something like 2 
to 2.5 degrees Fahrenheit. And through the public hearings that 
took place, they just gave up that plant, because they found 
that some forms of life that existed over there would have 
vanished with that kind of temperature increase.
    So I think we have to be very sensitive to some of these 
impacts.
    Mr. Hall. Right. Not to mention the fossil fuels that are 
burned in the mining and milling of uranium, the transportation 
of the uranium, the other fuel supplies that are used for 
enrichment, transportation to the plant of the enriched fuel, 
the transportation if we ever find a repository for spent fuel 
to a high-level waste storage site, the cooling water that is 
constantly circulated in the cooling ponds in the meanwhile 
while we are storing it on-site. All of those things use 
energy. So I just wanted to throw that out.
    There is an article in a recent paper about some nuclear 
plants in the southeast United States that had to be--or were 
facing a possibility of being shut down because the drought in 
the Southeast, in Georgia and Florida and the Carolinas, has 
gotten so bad that the river level had dropped to the point 
where they couldn't take the cooling water out and cool the 
plant without a danger of either drawing river level down 
further or just because of the reduced flow in the stream that 
the additional heat they are dumping into the river would be 
too much for any of the life in the river.
    So that is--you don't have to answer that; that is just 
more of the same thought.
    An article in this past Sunday's New York Times which you 
may have seen--I am sure you are well aware of this. One of the 
major issues that some people bring up is the global demand for 
meat and the defoliation of larger areas of rain forest to grow 
grain to feed cattle. And, in fact, according to this story, 
significant greenhouse gases are released by the growing of 
cattle for meat. And just this past week, the President of 
Brazil announced emergency measures to halt the burning and 
cutting of the country's rain forests for crop and grazing 
land. In the last 5 months alone, the Government of Brazil says 
1,250 square miles were lost.
    And then, on the inside, there is a little graph that shows 
that the average 1,100-pound beef cow can produce manure at a 
clip of 14.6 tons annually, which of course means methane being 
released by the manure. And the average Iowa hog will produce 
16.7 tons of manure for each of the 2,900 residents of the 
State. That, combined with the release of methane from 
landfilling--there are several sources of methane, decomposing 
plant waste, which Congressman Herseth Sandlin mentioned in the 
forests, but also in any wild environment, and also decomposing 
municipal solid waste in landfills release methane which are 
vented out those upside-down, J-shaped vents that we drive past 
as we are on the highway. And I also know, from having a lot of 
farms in my district and talking to the farmers, be they horse 
or cattle farmers, that they all have a severe manure 
management problem.
    This might seem a little off-the-wall to some in this 
country, I think, but it strikes me that there is a 
possibility, since methane is 20 times worse than carbon 
dioxide if it is released into the upper atmosphere, it is 
worse than carbon dioxide for global warming, that perhaps we 
should be examining ways of capturing the methane, be it from 
manure or from decomposing matter in landfills or in the 
forests, as was pointed out before. And if you burn the methane 
for power, well, at least you are reducing by a factor of, you 
know, 20 the impact on climate change.
    Would you comment on that?
    Mr. Pachauri. Well, in countries like China and even in 
India, a lot of the animal refuse is used for generating bio-
gas, and that is burned as a fuel. So, in a sense, you are 
capturing what would have been emitted into the atmosphere.
    And I think a program of that nature--I remember way back 
in the early 1970s, Senator Gaylord Nelson introduced a bill 
based on the work that he had seen being done in China and 
India on providing subsidies for bio-gas plants in some of the 
farm States. I really don't know what happened subsequently. 
But I think this is an area that requires a comprehensive 
national policy.
    But internationally, let me mention a concern that I have, 
sir, with the shift toward greater consumption of animal 
protein. We are going to find more and more food grains being 
provided just to produce animal protein. And this article 
clearly showed the equation between, let's say, X kilograms of 
food grains or X pounds of food grains producing one pound of 
meat protein. I think, with higher incomes, this is happening 
everywhere in the world.
    And I have been saying this, of course with muted breath, 
that I think the world has to consume much less meat, because 
this would certainly make human beings healthier, and it would 
make this only planet that we have a bit healthier, too. 
Because we are really releasing a lot of emissions of 
greenhouse gases through the entire cycle. I just wanted to 
mention that.
    Mr. Hall. Thank you very much, Mr. Chairman.
    The Chairman. The gentleman's time has expired. And I think 
we might be able to come back to each of you one more time.
    You know, there was a lot of good news generated right at 
the end of 2007. And here in the United States, an astounding 
new number: Of all of the new electrical generating capacity 
installed in the United States in 2007, 30 percent of all of 
the new installed capacity was wind, 56 percent of the new 
installed capacity was natural gas, 10 percent was coal, 1 
percent was oil, and 3 percent was other renewables. Now, that 
is an incredible revolution in the United States without a 
national renewable electricity standard.
    So wind is moving very, very rapidly. And globally, last 
year there was 16,000 new megawatts of wind installed globally 
and only 3,000 new megawatts of nuclear installed globally. And 
in the United States, there was no nuclear last year. There 
will be no nuclear this year or next year or the year after or 
the year after or the year after. In fact, there is an 
expectation that, by the end of 2010, that we will see 80,000 
new megawatts of wind installed globally, just by the end of 
2010. There is only 80,000 megawatts of installed capacity of 
nuclear in the country of France.
    So there is obviously something happening here that is 
working. It is working in the marketplace. And it is something 
that we, I think as a Nation, should put in place as a policy 
that can give the leadership to the rest of the world. Because 
in many, many instances in Third World countries and developing 
countries wind is a better option than a huge nuclear power 
plant, than a huge coal-fired plant in some remote village. It 
will bring them electricity more quickly, more efficiently and 
with much fewer environmental impacts right in that local 
community as well.
    Can you talk a little bit about this technological 
revolution and how already the regulations that maybe 20 States 
in the United States have put in place and certain countries 
around the world have put in place have already generated this 
tremendous revolution that we are beginning to identify in a 
significant way occurring here and around the world?
    Mr. Pachauri. Thank you, sir. Yes, I would like to say--let 
me first refer to wind energy. I mean, this is a remarkable 
record of technological development that has made such a 
difference in the last 25 to 30 years. Wind energy technology 
has progressed so substantially, and the costs of power 
generation from wind and under regimes of wind speeds has 
changed so drastically, that the whole thing has become 
completely viable. And I expect that this will continue.
    The kinds of sizes of machines that are now being produced 
in Europe and in this country are so much bigger, so much lower 
in terms of costs per unit, that it would make a sea change to 
the economics of this particular option.
    There are a lot of areas, and one area that I would like to 
mention for the reference of the honorable members is the fact 
that there are 1.6 billion people in this world who have no 
access to modern forms of energy and certainly no electricity. 
And essentially, these are people who really don't have any 
means for lighting their homes. They live in small homes. They 
are poor people, large numbers of people crowded together in a 
small, one-room dwelling and no form of lighting.
    Now, I have decided, as a mission personally and through my 
institute, to launch something that I call ``Lighting a Billion 
Lights.'' We have developed a set of solar lanterns that cost 
the equivalent of about $70 and a set of solar flashlights or 
torches, and these cost the equivalent of about $8. And I think 
if one can get these financed, either through corporate 
philanthropy, through development assistance--not free of cost 
but we price them in a manner that is affordable for the poor 
people of the world--it can make such a difference. And more 
than anything else, this obviates the possibility of setting up 
large, centralized coal-based power stations just to supply 
electricity to rural areas through transmission and 
distribution systems that are often terribly wasteful. So I 
think one has to jump-start this kind of process.
    And I think biomass gasification has enormous potential. 
There is a lot of agriculture residue, as I mentioned, in 
several parts of the world which can be gasified for power 
generation for local and decentralized distribution.
    So I think we are on the verge of a revolution of this 
nature. And it would help enormously if the U.S. could get into 
some partnership activities with the developing countries, 
because you can then develop technological solutions that would 
have relevance certainly to this country but to several other 
parts of the world. And you are then, therefore, forestalling 
the possibility of conventional energy development, which 
obviously would have greenhouse gas emissions over a period of 
time.
    So I think, as you said, Mr. Chairman, I think we are on 
the verge of a revolution. But if we could assist this through 
policy measures, through legislation, we would be able to 
achieve results that much faster.
    The Chairman. Well, Dr. Pachauri, that is the goal of the 
select committee this year. We are going to be visiting Brazil 
in February, and it will give us an opportunity to begin to 
think through what we should do to find ways to partner with 
countries that are emerging economically but with sometimes too 
high of a price paid in terms of the environmental impact 
inside of that country, which we now realize has an effect upon 
the rest of the world, because there is only one sky and we are 
all going to be affected by it.
    So it is in our interest in the United States, in Europe, 
to find ways of partnering with these countries with new 
technologies, with ways of compensating these countries not to 
engage in the same kind of destructive behavior that we did in 
our first generation of industrialization. So we are going to 
explore that in a very, very aggressive way this year to try to 
develop policy recommendations to achieve that goal.
    The time of the Chair has expired. Let me turn once again 
and recognize the gentlelady from South Dakota, if she has any 
other questions.
    Ms. Herseth Sandlin. No questions, Mr. Chairman.
    The Chairman. The gentleman from New York, Mr. Hall.
    Mr. Hall. I have one question, Mr. Chairman.
    If you would, sir, Doctor, would you--I will turn my mike 
on--I am glad to see that one of the key topics in discussion 
in Bali was the technology transfer to help developing 
countries leapfrog over fossil fuel development. And I thought 
that the President, our President's call for an international 
clean energy fund to meet this goal was one of the few bright 
spots of the State of the Union address this week.
    America has the technological know-how and the resources to 
develop many of the technologies that could be used to help 
bring developing countries into a clean energy future without 
having to go through the fossil-dependent phase that we have 
spent so much time in.
    What steps should our Government be taking to aid this 
process, which would also make America an energy exporter and 
not just a fuel importer?
    Mr. Pachauri. Sir, I personally think that there are 
several areas in which there could be cooperative activity 
between the U.S. and some of these countries.
    One would be in terms of technology development. I do 
realize scientific and technical know-how is at a very high 
level in this country. But often, to ensure that these 
technologies would be directly useful in the developing 
countries, you need to customize some of these technologies for 
application in the developing country. And that would involve 
partnerships, it would involve working with local organizations 
and local institutions to come up with the right mix of 
technological solutions.
    I think there is a lot that could be done in the policy 
arena. I mean, in this country there has been major achievement 
in terms of improvement of appliance efficiency for household 
appliances. And this took place about 10 to 15 years ago. And 
the measures by which this was brought about would be of great 
relevance to a number of countries in the world. If one looks 
at what has happened in the State of California in bringing 
about energy efficiency improvements, I think that is very, 
very heartening. And I think this required a lot of policy and 
regulatory measures, all of which would be of great relevance 
to developing countries.
    So what I would submit is that, quite apart from scientific 
and technical cooperation, which would help flow of technology 
on a commercial or, let's say, facilitated basis through 
facilitation by the Government, I think there is a lot of 
benefit in transferring some of the good practices, the policy 
experiences in this country that have created, say, a market 
for improved appliance efficiency and so on, because that is 
where I find in a number of developing countries there is a 
weakness. And if we don't address that weakness, then the 
transfer of technology will not take place to the extent that 
would be optimal.
    So I think there is need to define some of these 
comprehensive areas where one could ensure cooperation.
    Mr. Hall. Thank you very much, Doctor.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. I thank you.
    And let me just conclude with a couple of questions.
    In your opinion, what constitutes dangerous anthropogenic 
interference with the climate system, and how close are we to 
reaching dangerous interference with the climate system as a 
result of human activities? And are we there already?
    Mr. Pachauri. I think this is really the central objective 
of the Framework Convention on Climate Change, as is clearly 
stated in article 2 of the Convention.
    But may I submit, sir, that the definition of what is 
dangerous is really something that involves value judgments. 
And when you get into the issue of value judgments, then you 
necessarily have to take into account some of the equity 
dimensions of the problem.
    Now, I have been talking to a lot of leaders around the 
world. If you talk to some of them, they will tell you that we 
have already crossed that threshold of dangerous. Because these 
are some of the most vulnerable regions in the world, where the 
impacts of climate change are already causing hardship, if not 
a very tangible threat to life and property.
    So I really think to come up with a global definition of 
what is dangerous, in my view, requires a Gandhian approach. 
Gandhi, in his exhortations to society, said that, ``Anything 
you do, you must look at what the implications will be for the 
least privileged.'' And I think if we are going to add even a 
single unit of greenhouse gases to the Earth's atmosphere, we 
need to understand what it is going to do to the least 
privileged. And I think when, particularly in a society that is 
so focused on human rights and civil liberties and the right to 
live and the right to exist, I think we have to treat that as 
the touchstone of whatever policies we are evaluating.
    And if one was to use that yardstick, and based on my own 
conversations with people in these countries, I would say that 
we have probably crossed that threshold, in their perspective. 
But it is for the global community to decide what it regards as 
acceptable, in terms of dangerous.
    The Chairman. Thank you, Doctor. That was very eloquent.
    I want to conclude just by thanking you and telling you 
that, a year ago, when Speaker Pelosi created this Select 
Committee on Global Warming and Energy Independence, that there 
was still a debate going on as to whether or not human beings 
were having an effect upon the climate and whether or not that 
change in climate was dangerous for the planet and for human 
beings and other living things.
    Because of your work, because of your panel's work, that 
debate is now over. And one by one, as each one of your four 
reports were issued in 2007, it ended the debate over that 
issue. And now we are moving on to the question of what should 
we do about it.
    But your constant warnings about what the impacts are, your 
international leadership is something that was justifiably 
recognized with the Nobel Peace Prize. Because from Darfur to 
Somalia and increasingly other countries all across the planet, 
the impacts of climate change have profound effects upon the 
stability of nations. And you have now made it no longer a 
debatable issue. And, like Gandhi, you have now made an 
incredible change in the way in which the world views these 
issues, and we thank you for that.
    What I would ask, if you could, is to give us your final 
summary, give us your final warning to us, in terms of what the 
world's expectations are of the United States in 2008, because 
you do believe that we are so close to that tipping point.
    Mr. Pachauri. Thank you very much, Mr. Chairman.
    First, I must thank you for giving me this opportunity, and 
the honorable members of this select committee. It is indeed a 
great privilege for me to appear before you.
    And as a final summary of what I feel on the subject, may I 
submit, as you rightly emphasized, Mr. Chairman, that the 
science is very clear: The impacts of climate change are 
serious, they are measurable, and we know that they are going 
to get worse over time and over space.
    So, therefore, if we want to be responsible in terms of 
saving all forms of life and humanity across the globe, both in 
this generation and the coming generations, we need to act. We 
need to act by ensuring that we adapt to climate change, and 
that, as some societies that just don't have the ability or 
capacity to be able to adapt, I think as a humanitarian measure 
we must help those societies to adapt to climate change.
    But also looking at how we might be able to prevent or 
delay impacts that would cause serious problems in the future, 
mitigation is absolutely essential. And I would like to say 
that, based on our reports, we find that the cost of 
mitigation, if anything, is going to be minimal. And in some 
cases, it might lead to so many benefits that the minor cost 
that we incur would be largely offset with the benefits that we 
reap from mitigation measures.
    And I think we also have to ensure that the U.S. is in step 
with the rest of the world. And the rest of the world, if I may 
say, from all that I have been able to understand of what is 
happening, is moving in a direction where we will have a low-
carbon economy. The U.S. has to be in a leadership position to 
bring about this transition to a low-carbon economy. It is not 
going to be costly. It is going to be of enormous importance 
and benefit to business to take early action in this area.
    And I think, more than anything else, the rest of the world 
looks at the U.S. for leadership. It has been a leader in so 
many respects after the Second World War. What the U.S. brought 
about is really what we see as the benefits across the world of 
thriving democracies, of economies that are doing so well. We 
are at a similar juncture today. And I think if we can take 
leadership in this country to move in the right direction, 
there would be huge benefits and certainly an avoidance of huge 
costs that otherwise would accrue.
    So I would like to salute this select committee, sir, for 
the initiative that you have taken. And I think if we move 
along rapidly along the lines that you have outlined, Mr. 
Chairman, I think the whole world will look up to you, will 
salute you, and I am sure this society overall would benefit 
enormously, along with the rest of the world.
    The Chairman. Thank you, Dr. Pachauri.
    And as we close this hearing, I think you, as well, deserve 
the recognition for the work which you did and the difference 
that it has made in the way in which the world and the United 
States views these issues. And I think that you deserve the 
warm recognition, as we conclude this committee hearing. In 
addition to the Nobel Peace Prize which you received, I think 
that we should give you our own warm response, as well. Thank 
you so much, sir.
    [Applause.]
    The Chairman. This hearing is adjourned.
    [Whereupon, at 10:56 a.m., the committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8418A.014
    
    [GRAPHIC] [TIFF OMITTED] T8418A.015
    
    [GRAPHIC] [TIFF OMITTED] T8418A.016
    
    [GRAPHIC] [TIFF OMITTED] T8418A.017
    
    [GRAPHIC] [TIFF OMITTED] T8418A.018
    
    [GRAPHIC] [TIFF OMITTED] T8418A.019
    
    [GRAPHIC] [TIFF OMITTED] T8418A.020
    
    [GRAPHIC] [TIFF OMITTED] T8418A.021
    
    [GRAPHIC] [TIFF OMITTED] T8418A.022
    
    [GRAPHIC] [TIFF OMITTED] T8418A.023
    
    [GRAPHIC] [TIFF OMITTED] T8418A.024
    
    [GRAPHIC] [TIFF OMITTED] T8418A.025
    
    [GRAPHIC] [TIFF OMITTED] T8418A.026
    
    [GRAPHIC] [TIFF OMITTED] T8418A.027
    
    [GRAPHIC] [TIFF OMITTED] T8418A.028
    
    [GRAPHIC] [TIFF OMITTED] T8418A.029
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
